OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ANGOLA’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES
AUDIT REPORT NO. 4-654-08-006-P
September 30, 2008




PRETORIA, SOUTH AFRICA
Office of Inspector General


September 30, 2008

MEMORANDUM

TO:                  USAID/Angola, Mission Director, Susan Brems

FROM:                Regional Inspector General/Pretoria, Nathan Lokos /s/

SUBJECT:             Audit of USAID/Angola’s Democracy and Governance Activities
                     (Report No. 4-654-08-006-P)

This memorandum transmits our final report on the subject audit. In finalizing our report, we
considered your comments on our draft report and have included your response in its entirety as
Appendix II.

The report includes seven recommendations that USAID/Angola: (1) (a) properly record and
report on program results, (b) maintain source documents, and (c) avoid mathematical errors;
(2) assess its indicator for the number of domestic election observers trained to confirm that the
results are clearly and reasonably attributable to USAID efforts, and redefine the indicator if the
results are not attributable to USAID efforts; (3) complete a review of the 20 documents
identified in this report with performance end dates of 2005 and prior totaling about $452,000
and deobligate the balances that are no longer needed; (4) establish procedures requiring final
review and approval from senior management for performance management plans; (5)
strengthen its procedures to include a review of data reliability in all of its data quality
assessments; (6) strengthen its monitoring and evaluation procedures to ensure that data
integrity problems and recommendations noted in data quality assessments are adequately
addressed; and (7) establish procedures that require the regular validation of data and reporting
systems for results during site visits at all implementing partners and service providers.

In your response to the draft report, you provided corrective action plans addressing all seven
recommendations. Therefore, we consider that management decisions have been reached on
these recommendations. You also provided evidence that the corrective action had been
completed on recommendation nos. 1, 5, 6, and 7. We therefore consider that final action has
been taken for these recommendations with the publication of this report. Please provide the
Office of Audit, Performance, and Compliance Division (M/CFO/APC) with the necessary
documentation to achieve final action on recommendation nos. 2 through 4.

I would like to express my sincere appreciation for the cooperation and courtesy extended to my
staff during the audit.




U.S. Agency for International Development
100 Totius Street
Box 43 Groenkloof
Pretoria 0027, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

No Standard Provision To Prohibit
The Influence of Elections................................................................................................. 5

Reported Results Were Not Always Reliable.................................................................... 6

Old Unliquidated Obligations May No
Longer Be Needed ............................................................................................................ 9

Performance Management Plan Not
Approved by Management .............................................................................................. 10

Data Quality Assessments Were
Not Thoroughly Completed ............................................................................................. 11

Data Quality Assessment Recommendation
Was Not Implemented..................................................................................................... 12

Site Visits Were Not Thoroughly Conducted................................................................... 13

Evaluation of Management Comments ....................................................................... 15

Appendix I – Scope and Methodology ........................................................................ 17

Appendix II – Management Comments ....................................................................... 19

Appendix III – USAID/Angola Democracy and
Governance Indicators for Fiscal Year 2007 .............................................................. 23

Appendix IV – Unliquidated Obligations for Awards
with Performance End Dates Prior to January 1, 2006.............................................. 24
SUMMARY OF RESULTS
This audit, performed by the Regional Inspector General/Pretoria at USAID/Angola, is
part of a series of audits conducted by the Office of Inspector General. The audit was
conducted to determine whether selected USAID/Angola democracy and governance
activities were achieving planned results and what has been the impact. (page 3)

Several of USAID/Angola’s democracy and governance activities have achieved their
intended results, as summarized in appendix III. In fiscal year 2007, USAID/Angola
conducted activities for 13 of the 15 standard indicators in the operational plan’s
performance summary. 1 Of these 13 indicators, we audited 11 and determined that four
activities did not have reliable data; therefore the audit team was unable to provide a
conclusion for these. Of the remaining seven indicators, six activities achieved their
intended results, and one activity did not.

USAID/Angola’s democracy and governance program has achieved several of its
intended results and had a positive impact at the activity level. Here are some
examples:

    •   Justice sector personnel have received training and courts have been assisted in
        improving case management.
    •   Individuals have received training in management skills and fiscal management
        to strengthen and decentralize local government.
    •   Assistance has been provided to political parties and groups in effectively
        articulating their platforms and policy agendas. Election observers and election
        officials have also been trained.
    •   Civil society organizations have been assisted in improving their internal
        organizational capacity. (page 4)

Although progress has been made at the activity level in fiscal year 2007, this report
includes seven recommendations to strengthen USAID/Angola’s program.
Recommended actions are summarized as follows: (1) (a) properly record and report on
program results, (b) maintain source documents, and (c) avoid mathematical errors; (2)
assess its indicator for the number of domestic election observers trained to confirm that
the results are clearly and reasonably attributable to USAID efforts, and redefine the
indicator if the results are found to be not attributable to USAID efforts; (3) review the 20
democracy and governance documents identified in this report with performance end
dates of 2005 and earlier totaling about $452,000 and deobligate balances that are no
longer needed; (4) establish procedures requiring final review and approval from senior
management for performance management plans; (5) strengthen its procedures to
include a review of data reliability in all data quality assessments; (6) strengthen its
monitoring and evaluation procedures to ensure that data integrity problems and
recommendations noted in data quality assessments are adequately addressed; and (7)
establish procedures that require the regular validation of data and reporting systems for

1
  With the establishment of the Department of State’s new Office of the Director of Foreign
Assistance in 2006, and the introduction of foreign assistance reform by the Foreign Assistance
Office, USAID realigned its planning, budgeting and reporting system to produce the first set of
joint operational plans with the Department of State in 2007.


                                                                                              1
results during site visits at all implementing partners and service providers. (pages 5 to
14)

For the seven recommendations set forth above, USAID/Angola concurred with the
recommended actions and has provided planned actions to address these
recommendations, thereby reaching a management decision on all seven
recommendations. For recommendation nos. 1, 5, 6, and 7, USAID/Angola also
provided evidence that final action had been taken. Management comments are
included in their entirety in appendix II.




                                                                                        2
BACKGROUND
As the main implementer of U.S. democracy and governance programs, USAID is
advancing the President’s freedom agenda. USAID has played a significant role
supporting democracy and governance programs around the world and leading
countries to greater freedoms. Attributes of good governance include transparency,
accountability, and equity. To achieve these attributes, USAID/Angola’s democracy and
governance program consists of four program areas: (1) rule of law and human rights, (2)
good governance, (3) political competition and consensus-building, and (4) civil society.

Under rule of law and human rights, USAID/Angola’s program is directed at increasing case
management efficiency within the court system; strengthening the capabilities of a network
of Angolan human rights nongovernmental organizations to assess, monitor and report on
human rights issues, with an emphasis on situations in Lundas and Cabinda provinces; and
introducing into Angolan diamond mining companies new practices to control diamond
smuggling.

In the area of good governance, the mission is promoting systemic reforms by encouraging
transparency and accountability in support of an informed citizenry; stimulating
government—civil society dialogue that addresses good governance, service delivery, and
economic opportunities; and strengthening vertical linkages within government to build
capacity, enable deconcentration, increase social services delivery, and facilitate local
opportunities.

In its program for political competition and consensus-building, the mission is helping
elections management bodies, political parties and civil society organizations prepare for
and participate in the pending elections, thereby increasing the overall level of confidence
in the process and credibility of the results.

To address nascent and weak civil society structures, USAID/Angola is promoting viable
approaches for a stronger civil society voice and role, including the media; improved
dialogue; and a stronger foundation for more transparent, accountable and decentralized
governance. Within 5 years, the mission reports that U.S. Government resources will
facilitate the effectiveness and viability of constituency-based civil society organizations.

In fiscal year 2007, USAID/Angola reported $36.4 million in democracy and governance
obligations awarded through 11 major agreements to implementing partners.


AUDIT OBJECTIVE
The Regional Inspector General/Pretoria conducted this audit at USAID/Angola as part
of a series of audits performed by the Office of Inspector General to answer the following
question:

   •   Are USAID/Angola’s democracy and governance activities achieving intended
       results and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.


                                                                                           3
AUDIT FINDINGS
Several of USAID/Angola’s democracy and governance activities have achieved their
intended results, as summarized in appendix III. In fiscal year 2007, USAID/Angola
conducted activities related to 13 of the 15 standard indicators in the operational plan’s
performance summary. 2 Of these 13 indicators, we audited 11 and determined that four
did not have reliable data; therefore, we were unable to provide a conclusion for those
indicators. Of the remaining seven indicators, however, six activities achieved their
intended results, while one activity did not.

USAID/Angola’s democracy and governance program has achieved several of its
intended results, and had a positive impact at the activity level. Some examples follow:

    •   Under the rule of law and human rights component, justice sector personnel have
        received training and courts have been assisted.

    •   In the area of good governance, the program has trained executive branch
        personnel and provided support to executive office operations. Additionally,
        individuals have received training in management skills and fiscal management
        to strengthen and decentralize local government.

    •   To address political competition and consensus-building, the mission’s program
        trained individuals in the various aspects of political party organization and
        provided assistance to political parties and groups in effectively articulating their
        platforms and policy agendas. The program also trained election observers,
        election officials, and provided voter education to the general public.

    •   In the area of nascent and weak civil society structures, the program assisted
        civil society organizations in strengthening their internal organizational capacity
        and supported advocacy campaigns of these organizations.

Despite the fact that USAID/Angola’s democracy and governance program achieved
many of its intended results, the mission can still strengthen its program in several
areas. These areas include the following: (1) no standard provision exists to prohibit the
use of democracy and governance funds to influence an election (this would have to be
addressed by USAID/Washington), (2) reported results that were not reliable, (3)
unliquidated obligations that may no longer be needed, (4) a performance management
plan not approved by management, (5) data quality assessments that were not
thoroughly completed, (6) a data quality assessment that was not implemented, and (7)
site visits that were not thoroughly conducted. These issues are discussed below.




2
  With the establishment of the Department of State’s new Office of the Director of Foreign
Assistance in 2006, and the introduction of foreign assistance reform by the Foreign Assistance
Office, USAID realigned its planning, budgeting and reporting system to produce the first set of
joint operational plans with the Department of State in 2007.


                                                                                              4
Photograph of Municipal Profile planning meeting with the women focus group in Chitato
municipality in July 2007. (Photograph taken by a staff member of the Development Workshop for
the Municipal Development Program.)



No Standard Provision to
Prohibit the Influence of Elections

  Summary: Federal law states that development assistance funds “may not be
  used, directly or indirectly, to influence the outcome of any election in any country.”
  Although the prohibition is required by statute, none of USAID/Angola’s democracy
  and governance agreements included a clause prohibiting the use of development
  assistance funds to influence the outcome of a country election because it is not a
  standard provision required by USAID guidance. While the OIG does not know
  why this prohibition is not a standard provision, we believe that it is an important
  internal control issue for USAID in general. Standard provisions communicating
  this prohibition would help guard against the damage that could be done to the
  credibility of USAID’s programs, should its foreign assistance funding be used to
  influence the outcome of elections.

Section 2151n(e) of Title 22 of the United States Code states that although the President
is authorized to use foreign assistance funding for carrying out programs that will
encourage or promote increased adherence to civil and political rights, none of those
funding may be used to influence the outcome of any election in any country. Despite
this prohibition, USAID has not promulgated standard provisions for inclusion in its
agreements with partners that would communicate and enforce this prohibition.



                                                                                            5
According to Office of Management and Budget Circular A-123, paragraph 3, Agency
management is responsible for establishing and maintaining internal control to achieve—
among other things—compliance with applicable laws and regulations. The use of
standard provisions is one such internal control. USAID incorporates standard
provisions in its agreements to communicate and enforce key aspects of laws and
regulations. For example, standard provisions in USAID agreements with foreign
governments, as well as those with U.S. and foreign nongovernmental organizations,
prohibit assistance to drug traffickers. (Such assistance is prohibited by Section 2291f of
Title 22 of the United States Code). Other USAID standard provisions prohibit the
provision of resources and support to individuals and entities, countries, or the
governments of any countries associated with terrorism, as stipulated in Executive Order
No. 13224 and Sections 2371 and 2377 of Title 22 of the United States Code.

The Office of Inspector General (OIG) does not know why USAID has not promulgated
standard provisions to prohibit the use of USAID funds to influence the outcome of
foreign or domestic elections, however, it is important to do so. Standard provisions
communicating this prohibition would help guard against the damage that could be done
to the credibility of USAID’s programs, should its foreign assistance funding be used to
influence the outcome of elections. However, since this issue impacts USAID as a
whole and this report is directed specifically at USAID/Angola, this audit will refer this
issue to OIG’s Performance Audits Division for inclusion in its report summarizing the
results of this and the other mission-level audits. Accordingly, this audit report is not
making a recommendation in this report regarding this issue.


Reported Results Were Not Always Reliable

     Summary: Reported results for four indicators were not reliable, contrary to USAID
     guidance. The principal cause was the lack of adequate record-keeping and
     reporting systems, which resulted from a lack of training. A contributory cause was
     weak internal control. Consequently, USAID/Angola did not have reasonable
     assurance that intended results were being achieved, which could negatively affect
     performance-based decisions.

USAID’s results-oriented management approach relies on its managers considering
performance information when making their decisions. Sound decisions require
accurate, current, and reliable information, and the benefits of USAID’s results-oriented
approach depend substantially on the quality of the performance information available. 3

A key element in an indicator’s reliability is that the indicator actually reflects what it
purports to measure. This is recognized by both the Automated Directives System
(ADS), which states that performance indicators selected for inclusion in the
performance management plan should measure changes that are clearly and
reasonably attributable, at least in part, to USAID efforts (ADS 203.3.4.2), and the
Guidelines for Indicator and Data Quality, which states that one of the critical
requirements for an indicator is the degree to which the indicator and the related data
accurately reflect the process it is being used to measure. It is also important that
performance information be documented. The Government Accountability Office’s
3
    USAID’s Guidelines for Indicator and Data Quality (TIPS No. 12)


                                                                                           6
Standards for Internal Control in the Federal Government states that all transactions and
significant events need to be clearly documented and that the documentation should be
readily available.




Photograph of Community forum from Huambo Province, Tchicala Tcholoanga Municipality in the
Sambo district where the community has come together to debate priorities for local development.
(Photograph taken by staff member of Save the Children for the Municipal Development Program.)

The sample identified several data quality problems for four fiscal year 2007 democracy
and governance indicators, which raised questions concerning the reliability of the
reported results. These problems included (1) results that may not have been
attributable to the USAID-funded program, (2) the lack of supporting documentation for
results, and (3) unreconciled differences between the records of implementing partners
and those of service providers. These problems were found in the following indicators
that were included in the mission’s fiscal 2007 performance narrative.

“Number of Domestic Election Observers Trained with USG Assistance” – The
mission’s implementing partner did not have complete support that the reported 473
observers were in fact trained with U.S. Government assistance. The partner simply
used the number of accredited observers provided by the national election commission,
and had no support for whether they received training at all or whether that training, if
any, was from USAID assistance or from some other donor. If the current methodology
is used to report results, the mission needs to clearly separate USAID-trained individuals
from those trained by other development partners.




                                                                                                   7
“Number of People Reached by USG Assisted Voter Education” – The audit team
was unable to obtain adequate support for the reported 134,000 people reached in fiscal
year 2007. Although available records at the partner indicated that 132,588 people were
reached during this period, the partner’s quarterly documentation supporting this number
did not reconcile with the numbers coming from the service providers in the two
provinces sampled during the audit. For example, in one province for the first quarter,
the partner reported 16,976 people, as compared to the service provider’s records of
10,377 people. For the third quarter, the partner reported 6,339 people, whereas the
provider’s records indicated only 4,013 people. In addition, the service providers did not
maintain any attendance records to support the reported results, but instead used visual
head counts. Since the provider reported only one site visit from the partner and no
visits from USAID, there is little validation for the accuracy of this methodology.
Therefore, it should be examined to determine whether it is a reliable method for
recording attendance.

“Number of Individuals Who Received USG-Assisted Training Including
Management Skills and Fiscal Management to Strengthen Local Government
and/or Decentralization” – The major implementing partner did not have complete
support for the 981 individuals reported as having received training, nor did the partner’s
internal records reconcile with the number reported to USAID. Although the mission
reported 922 for the major partner, internal partner records indicated that the number
should have been 1,257. The service provider records tested in the two sampled
provinces did not reconcile with the partner’s records and were not always complete.
For example, in one province, the providers’ records indicated that 796 individuals were
trained over an 8-month period, whereas the partner’s records were missing 4 of the 8
months of data and had records for only 328 individuals in 4 months. Additionally, in one
province the provider did not have records for a 5-month period. Finally, the results
reporting systems between the providers and the implementing partner were neither
documented nor consistent, employing various reporting methods that included the
telephone, the postal mail, fax, and e-mail.

“Number of Election Officials Trained with USG Assistance” – The reported results
were not completely supported with source documents. For the first several training
sessions, which included 62 out of the reported 96 trainees, the partner did not obtain
participant lists to support the number of officials trained. However, as a result of a data
quality assessment, the mission identified the problem and notified the partner, which
subsequently established procedures to maintain adequate source documentation for
future training sessions.

The data problems described above occurred because of a lack of training for the
service providers and the implementing partners. A contributory cause was a weak
internal control associated with data quality assessments and site visits, which are
discussed later in this report. The service providers, which consisted of several types of
local organizations, were not always aware of record-keeping and reporting systems
requirements. In addition to a lack of source documents, the audit team found a variety
of reporting mechanisms, including the telephone, fax machine, postal mail, and e-mail.
With these inadequate records and inconsistent and undocumented reporting systems,
internal control for results reporting was not sufficiently reliable to ensure that reported
service provider results were attributable to the mission’s program, were accurate and
supported, and were accurately summarized before being reported to the mission.



                                                                                          8
Without accurately reported results, USAID/Angola did not have reasonable assurance
that data quality met validity, timeliness, and reliability standards. 4 A lack of these
standards could negatively affect performance-based decision making. For these
reasons, the audit makes the following recommendations to strengthen the results
reporting system under the mission’s democracy and governance program:

     Recommendation No. 1: We recommend that USAID/Angola develop a plan,
     with milestones, to provide training to all implementing partners and service
     providers on how to (a) properly record and report on program results, (b)
     maintain source documents, and (c) avoid mathematical errors.

     Recommendation No. 2: We recommend that USAID/Angola assess its indicator
     for the number of domestic election observers trained to confirm that the results
     are clearly and reasonably attributable to USAID efforts, and redefine the
     indicator if the results are found to be not attributable to USAID efforts.


Old Unliquidated Obligations
May No Longer Be Needed

    Summary: USAID/Angola has not been completing unliquidated obligation reviews
    for its democracy and governance obligations as required by USAID guidance. As
    a result, unliquidated balances that may no longer be needed were not deobligated.
    Mission officials stated that those obligations were not deobligated because of
    problems with Phoenix, USAID’s new accounting system. Staffing constraints were
    also cited as a cause. Consequently, democracy and governance funds that were
    no longer needed were not identified and deobligated so that they could be made
    available for other uses.

ADS 621.3.17 states that unexpended obligated balances must be monitored to ensure
that they are deobligated when no longer needed for the purposes for which they were
initially obligated. A careful review of unexpended obligated balances strengthens
internal control by deleting from the accounting system balances that are no longer
required for future payments. This helps to identify funds that can be reprogrammed for
current requirements. In addition, the review supports USAID’s formal year-end
certification to the Department of Treasury that reported balances are valid.

USAID/Angola has not been completing unliquidated obligation reviews by deobligating
unneeded balances for its democracy and governance obligations. A total of 20
democracy and governance award documents, as set forth in appendix IV, had
unliquidated balances totaling approximately $452,000 with performance end dates of
2005 and earlier, some dating as far back as fiscal year 2002. These obligations
consisted of a variety of documents that included numerous expired personal services
contracts, a memorandum of agreement, a purchase order, and various other contracts,
grants, and cooperative agreements.
4
  USAID’s Guidelines for Indicator and Data Quality (TIPS No. 12) provides data quality
standards. Validity refers to data that clearly and directly measure the result they are intended to
measure. Reliability refers to data that have a stable or consistent measuring process.
Timeliness refers to data that are sufficiently up to date to be useful in decision making.


                                                                                                  9
USAID/Angola staff stated that the principal reason that the deobligations were not
completed was the absence of a bilateral agreement, which complicated the deobligation
process in the Phoenix accounting system. Since the mission did not operate under a
bilateral agreement, additional procedures were necessary to complete the deobligation.
A contributory cause, according to the mission, was staffing constraints resulting from
vacant staff positions.

The result of the failure to complete the liquidations of unneeded balances was that the
funds were not made available for other uses. To correct the weakness in the system
for reviewing democracy and governance unliquidated obligations, this audit makes the
following recommendation:

      Recommendation No. 3: We recommend that USAID/Angola (a) complete a
      review of the 20 democracy and governance documents identified in this report
      with performance end dates of 2005 and prior totaling $452,000, (b) confirm what
      procedures are necessary to deobligate funds in Phoenix, and (c) deobligate the
      balances that are no longer needed.


Performance Management Plan Not
Approved by Management

     Summary: Contrary to applicable guidance, the performance management plan for
     the fiscal year 2007 democracy and governance program was not approved by
     senior management. This occurred because the mission did not have procedures
     requiring a final review and approval of the plan. Without senior management
     review and approval, the plan never became an official completed mission
     document. Therefore, management lost an important opportunity for review and
     possible revision.     In the absence of a completed and approved plan,
     USAID/Angola did not have reasonable assurance that it was maintaining the
     elements that are essential to the operation of a credible and useful performance-
     based management system.

USAID’s ADS emphasizes that operating units must prepare a performance
management plan for each strategic objective. 5 Information included shall enable
comparable performance data to be collected over time, even in the event of staff
turnover, and shall clearly articulate expectations in terms of scheduling and
responsibility. Specifically, performance management plans shall provide a detailed
definition of the performance indicators that will be tracked; specify the source, method
of collection and schedule of collection for all required data; and assign responsibility for
collection to a specific office, team, or individual. 6 In addition, the Government
Accountability Office’s Standards for Internal Control in the Federal Government states
that control activities are an integral part of achieving effective results and that such
activities include approvals and authorizations.



5
    ADS 203.3.3
6
    ADS 203.3.3.1


                                                                                          10
Despite the importance of approvals and authorizations, the performance management
plan for the fiscal year 2007 democracy and governance program was not approved by
USAID/Angola management. Mission procedures simply called for posting the final
version of the plan on the mission’s public drive without management approval. As a
result, certain key elements of the plan were omitted.

For example, two indicators in the plan, “Number of USG-Assisted Courts with Improved
Case Management” and “Number of Executive Office Operations Supported with USG
Assistance,” did not include indicator reference sheets, which specify basic components
of the monitoring and evaluating procedures for each indicator.

These significant omissions might have been discovered during a review by mission
management before approving the performance management plan. However, such a
review did not occur because the mission did not require that performance management
plans be reviewed and approved by mission management before posting to the
mission’s public drive. A contributory cause cited by the democracy and governance
team was a shortage of staff because two positions were vacant during the fiscal year.

Without a complete and approved performance management plan, USAID/Angola has
been without the critical tool for planning, managing, and documenting data collection as
called for in the ADS. Complete and approved performance management plans
contribute to the effectiveness of the performance monitoring system by ensuring that
comparable data will be collected on a regular and timely basis. Without such a plan,
the mission did not have the intended level of assurance that it was maintaining the
essential elements of a credible and useful performance-based management system.
To address this situation, this audit makes the following recommendation:

   Recommendation No. 4: We recommend that USAID/Angola (a) establish
   procedures requiring senior mission management review and approval of final
   performance management plans and (b) review and approve the performance
   management plan for the democracy and governance program.


Data Quality Assessments Were
Not Thoroughly Completed

  Summary: Data quality assessments were not always thoroughly completed in
  fiscal year 2007 for the democracy and governance program, contrary to USAID
  guidance. This problem arose as a result of weak internal control and reported
  staffing constraints. Without complete data quality assessments, data quality
  problems resulted and USAID/Angola did not have reasonable assurance that data
  quality for its indicators met validity, timeliness, and reliability standards, the lack of
  which could negatively affect performance-based management decisions.

ADS 203.3.5.2 states that the purpose of data quality assessments is to ensure that
operating units are aware of (1) the strengths and weaknesses of the data as
determined by applying applicable quality standards and (2) the extent to which the data
integrity can be trusted to influence management decisions. The ADS continues by
stating that data reported to USAID/Washington for Government Performance and
Results Act reporting purposes or for reporting externally on USAID performance must


                                                                                                11
have had a data quality assessment within the 3 years before submission. To
implement these requirements, USAID/Angola published Mission Order no. 203,
“Assessing and Learning,” in March 2007. This order states that one of the
responsibilities of program teams is to monitor and verify the accuracy of reported
results by conducting regular site and field visits to review data collection and
documentation at its source.

Although USAID/Angola had been completing data quality assessments for its
democracy and governance indicators, the reliability of the data in two of those
assessments was not adequately tested. The mission’s assessments found data
reliability problems with two performance indicators, in contrast with this audit, which
found data reliability problems with four of the performance indicators. The mission’s
data quality assessment did not include an analysis of data reliability for the indicators,
“Number of Domestic Election Observers Trained with USG Assistance,” and “Number
of People Reached by USG Assisted Voter Education.” As a result, the data reliability
problems were not identified before the mission reported results for these two indicators.

The mission cited the facts that the program was new for fiscal year 2007 and that
staffing constraints contributed to the incomplete data quality assessments. Without
adequate data reliability testing, the mission did not have reasonable assurance that
data used for performance-based decision making and reporting were accurate and
reliable. Procedures for addressing data integrity problems identified in data quality
assessments could easily have corrected the data reliability problems for the indicators
identified in this report. To address the need to thoroughly complete the data quality
assessments for the democracy and governance program, this audit makes the following
recommendation:

   Recommendation No. 5: We recommend that USAID/Angola strengthen its
   procedures to ensure that all of its data quality assessments include a thorough
   review of data reliability.


Data Quality Assessment Recommendation
Was Not Implemented

  Summary: Contrary to USAID guidance, a recommendation from a data quality
  assessment to improve the validity of reported results was not implemented
  because of weak monitoring and evaluating controls. As a result, USAID/Angola
  did not have reasonable assurance that data quality for its indicators met validity,
  timeliness, and reliability standards, the lack of which could negatively affect
  performance-based management decisions.

ADS 203.3.5.2 states that the purpose of data quality assessments is to ensure that
operating units are aware of the strengths and weaknesses of the data by applying
applicable quality standards and also aware of the extent to which the data integrity can
be trusted to influence management decisions. The ADS continues by stating that data
reported to USAID/Washington for Government Performance and Results Act reporting
purposes or for reporting externally on agency performance must have had a data
quality assessment within the 3 years before submission.



                                                                                         12
As required by the ADS, USAID/Angola completed a data quality assessment for the
indicator “Number of Individuals Who Received USG-Assisted Training, Including
Management Skills and Fiscal Management, to Strengthen Local Government and/or
Decentralization.” As intended, the assessment identified a lack of documentation for
this indicator, similar to that identified previously in this report, and recommended that
the data be reassessed before final numbers were reported to Washington. However,
the reassessment was not completed and the original results were subsequently
reported to Washington.

This oversight occurred because the mission’s monitoring and evaluation procedures did
not include followup to ensure that all recommendations in data quality assessments
were addressed. Mission staff also cited staffing constraints and the fact that much of
the program had only recently been implemented.

Without adequate followup of recommendations from data quality assessments, the
mission did not have reasonable assurance that data used for performance-based
decision making and reporting were accurate and reliable. Procedures for addressing
data integrity problems identified in data quality assessments could easily have
corrected the data reliability problem for the indicator mentioned above. Therefore, this
audit makes the following recommendation:

   Recommendation No. 6: We recommend that USAID/Angola strengthen its
   monitoring and evaluation procedures by including followup to help ensure that
   data integrity problems and recommendations noted in data quality assessments
   are adequately addressed.


Site Visits Were Not
Thoroughly Conducted

  Summary: USAID/Angola did not thoroughly conduct site visits at its implementing
  partners and service providers contrary to USAID guidance. The mission attributed
  this problem to the fact that a major portion of the program was new and also to the
  lack of available staff. Without active monitoring with thorough site visits, the
  mission did not have reasonable assurance that data used for performance-based
  decision making and reporting were accurate and reliable. Additionally, many of
  the data integrity problems identified in this report might have been avoided through
  adequate site visits.

ADS 202.3.4.6 states that strategic objective teams must ensure that they have
adequate official documentation on agreements used to implement USAID-funded
projects, resources expended, issues identified, and corrective actions taken. Moreover,
ADS 202.3.6 states that monitoring the quality and timeliness of implementing partners’
outputs is a major task of cognizant technical officers and strategic objective teams. It
specifies that problems in output quality provide an early warning that results may not be
achieved as planned and that early action in response to problems is essential in
managing for results.

This is recognized in USAID/Angola’s Mission Order no. 203, “Assessing and Learning.”
This mission order states that one of the responsibilities of program teams is to monitor


                                                                                          13
and verify the accuracy of reported results by conducting regular site and field visits to
review data collection and documentation at its source. The mission’s field trip report
sheet includes a monitoring section to verify that records, data collection and reporting
tools are complete, well designed, administered and maintained.

Although the democracy and governance team conducted some site visits, the audit
team did not find documentation supporting that data was verified during those visits.
This was a particularly crucial omission for the partners that were experiencing data
reliability and reporting problems. This resulted, at least in part, from the fact that fiscal
year 2007 was the first year of implementation for a large portion of the program and,
consequently, the mission’s team and partners were new to the program. Additionally,
the mission reported that it had two vacant positions on its democracy and governance
team during fiscal year 2007. According to the mission, this staffing constraint affected
the democracy and governance team’s ability to properly complete monitoring and
evaluation activities. These vacant positions have since been filled.

Without active monitoring through regular site visits and data verification, the mission did
not have reasonable assurance that data used for performance-based decision making
and for reporting was accurate and reliable. An active monitoring program with regular
site visits for monitoring project progress and verifying data could easily have identified
documentation and reporting issues and avoided many of the data reliability problems
identified in this report. Therefore, this audit makes the following recommendation:

   Recommendation No. 7:            We recommend that USAID/Angola establish
   procedures, including a revision to the trip report sheet in Mission Order no. 203,
   that require the regular validation of data and reporting systems for results during
   site visits at all implementing partners and service providers.




                                                                                           14
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Angola concurred with all seven
recommendations. The mission described the actions taken and planned to be taken to
address our concerns. The mission’s comments and our evaluation of those comments
are summarized below.

In response to recommendation no. 1, concerning training for all implementing partners
and service providers, USAID/Angola concurred with the recommendation. The mission
has provided evidence that it has already completed a workshop for its partners and
providers covering the required material. Since the training has already taken place, we
consider that final action has been completed on this recommendation.

In response to recommendation no. 2, concerning the assessment of the indicator for the
number of domestic election observers trained, USAID/Angola concurred with the
recommendation. The data quality assessment on this indicator will be carried out in the
first quarter of fiscal year 2009 and any necessary redefinition will be completed by
December 31, 2008. As a result of these planned actions, we consider that a
management decision has been reached on this recommendation. Documentation
supporting the completed actions should be sent to M/CFO/APC for final action.

In response to recommendation no. 3, concerning the review and potential deobligation
of democracy and governance unliquidated obligations, USAID/Angola concurred with
the recommendation and reported that it is in the process of reviewing the relevant
documents. The mission reported that it had already completed deobligation of
$365,649 and plans to complete the review by March 31, 2009. With these completed
and proposed actions, we consider that a management decision has been reached on
this recommendation. Documentation supporting the completed actions should be sent
to M/CFO/APC for final action.

In response to recommendation no. 4 concerning procedures for the review and
approval of performance management plans, USAID/Angola concurred with this
recommendation. The mission is revising its mission order on performance management
to address this issue, with a targeted completion date of December 31, 2008. We
consider that a management decision has been reached on this recommendation.
Documentation supporting the completed actions should be sent to M/CFO/APC for final
action.

In response to recommendation nos. 5 and 6, concerning the review of data reliability in
data quality assessments and implementing subsequent recommendations on data
integrity arising from data quality assessments, USAID/Angola concurred with these
recommendations. The mission has recently hired a new monitoring and evaluation
specialist and implemented a new comprehensive mission order on performance
management. As a result of these actions, we consider that final action has been
completed on these recommendations.




                                                                                     15
In response to recommendation no. 7, concerning the establishment of procedures
requiring data validation during site visits, USAID/Angola concurred with the
recommendation. The mission recently hired a new monitoring and evaluation specialist
and implemented a new comprehensive mission order on performance management.
As a result of these actions, we consider that final action has been completed on this
recommendation.




                                                                                   16
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with
generally accepted Government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective, which was to determine whether USAID/Angola’s democracy and
governance activities achieved their intended results and what the impact of its program
has been. Audit fieldwork was conducted at USAID/Angola from March 4, to March 27,
2008. The audit covered the period of fiscal year 2007.

In planning and performing the audit, we assessed management controls related to
management review, proper execution of transactions and events, and review of
performance measures and indicators. Specifically, we obtained an understanding of and
evaluated (1) the fiscal year 2007 operational plan (new requirement for fiscal year 2007),
(2) the fiscal year 2007 performance monitoring plan, (3) the Federal Managers Financial
Integrity Act of 1982, (4) implementing partner agreements, (5) the award oversight
performed by cognizant technical officers, (6) performance measures, (7) actual
performance results, (8) fiscal year 2007 data quality assessments, and (9) financial
reports. We also interviewed key USAID/Angola personnel and implementing partners.
We conducted the audit at USAID/Angola and in three provinces.

As of September 30, 2007, USAID/Angola’s democracy and governance program had 11
major agreements with total obligations of $36.4 million, against which $22.6 has been
expended. We focused primarily on the four newer agreements, which totaled $24 million
in obligations, or 66 percent of total obligations.

Methodology
To answer the audit objective, we reviewed the fiscal year 2007 operational plan’s
planned and actual results. At USAID/Angola, the democracy and governance program
reported on 13 of the 15 standard indicators in its operational plan. In addition, the
mission had several custom indicators in its performance management plan.

For 11 of the standard indicators, we validated performance results and compared
reported information to documented results for a judgmentally selected sample of results
submitted by implementing partners for fiscal year 2007. For the implementing partners
and service providers that contributed results to the 11 indicators that we tested, we
reviewed the partners’ agreements, progress reports, and work plans.

We also reviewed applicable laws and regulations, as well as USAID policies and
procedures pertaining to USAID/Angola’s democracy and governance program,
including the following: (1) Federal Managers Financial Integrity Act of 1982; (2) Foreign
Assistance Act of 1961 section 116(e); and (3) Automated Directives System chapters
201, 203, 253, 324, 350, and 621.



                                                                                        17
We also reviewed obligating and budget reports as of September 30, 2007, and current
reports for which the fieldwork took place. In the process of testing the results of the 11
selected indicators, we conducted 11 site visits in three provinces. These visits included
interviews with USAID/Angola’s democracy and governance team members,
implementing partners, service providers, and beneficiaries, as well as the review of
relevant documentation.




                                                                                        18
                                                                             APPENDIX II



MANAGEMENT COMMENTS

                                                MEMORANDUM



TO:            Regional Inspector General/Pretoria, Nathan Lokos

CC:            Carlene Dei, Director, USAID/Southern Africa

FROM:          Susan K. Brems, Ph.D., Director, USAID/Angola /s/

DATE:          August 20, 2008

SUBJECT:       Management Comments on the Draft Audit Report of USAID/Angola’s
               Democracy and Governance Activities (Report No. 4-654-08-00X-P)

This memorandum transmits USAID/Angola’s management comments on the referenced
RIG/Pretoria Draft Audit Report. Thank you for sharing the draft report with the Mission
and for providing us the opportunity to make clarifications. We welcome the report and
your continuing guidance on measures to improve implementation of democracy and
governance activities. Below we provide additional information to address the draft
findings and some of the report’s language. In addition, we have outlined a number of
management actions that we believe will fully address the audit recommendations. We
very much appreciate the thoroughness and professionalism with which this audit was
conducted. On the whole, we consider that the team has presented a balanced report
with recommendations useful to the program and the Mission.

Recommendation No. 1: We recommend that USAID/Angola develop a plan, with
milestones, to provide training to all implementing partners and service providers on
how to (a) properly record and report on program results, (b) maintain source
documents, and (c) avoid mathematical errors.

Comment/response: We agree with the recommendation. In the period between the
audit visit and the issuance of the draft report, USAID/Angola addressed this
recommendation with all our partners and service providers through a week-long training
workshop held April 14-18, 2008. The workshop was conducted by Management
Systems International, affirm well known for its monitoring and evaluation expertise. The
Mission proposes to follow up with this extensive training with refresher training at least
one a year. Thus, the Mission believes this recommendation can be closed.

Recommendation No. 2: We recommend that USAID/Angola assess its indicator for
the number of domestic election observers trained to confirm that the results are
clearly and reasonably attributable to USAID efforts, and redefine the indicator if the
results are found to be not attributable to USAID efforts.




                                                                                          19
                                                                              APPENDIX II


Comment/response: We agree with the recommendation. At the time the audit took
place, the Mission’s monitoring expert was in the process of conducting data quality
assessments on a number of Mission indicators. The data quality assessment on this
indicator will be carried out in the first quarter of FY 2009 (after Angola’s legislative
elections in September). The data quality assessment and any necessary redefinition
for this indicator will be completed by December 31, 2008.

Recommendation No. 3: We recommend that USAID/Angola (a) complete a review of
the 20 democracy and governance documents identified in this report with performance
end dates of 2005 and prior totaling $452,000, (b) confirm what procedures are
necessary to de-obligate funds in Phoenix, and (c) de-obligate the balances that are no
longer needed.

Comment/response: We agree with this recommendation. De-obligations are partially
complete or in-process; this work is being carried out in collaboration with the Regional
Controller’s Office in USAID/South Africa. The major action for USAID/Angola is to
obtain a revised final Form 269 from the America’s Development Foundation (654-CA-
690-A-00-04-00304-1). The balance under this agreement, at $158,254, is the largest
amount outstanding. Although the Mission has received a final Form 269 to initiate
close-out, that form contained a provisional indirect rate. The Mission has requested a
final version.

De-obligations for Administrative Expenses (Item 10- 654-MOA4-SO6-ADMIN-EXP-1 for
$7454) and Multipress (Item 11 654-PO-654-O-00-05-00002-1 for $50,000) have
cleared, and we therefore request that these activities be removed from the table in
Appendix IV. Also, with regards to 654-IAA-654-P-00-00-000076-3 for $165,484,
PHOENIX reports that it has cleared $149,941.50, so we request that the amount for
654-IAA-654-P-00-00-000076-3 be corrected to $15,542.68.

In cooperation with USAID/South Africa, USAID/Angola will target March 31, 2009 for
closing this recommendation.

Recommendation No. 4: We recommend that USAID/Angola (a) establish procedures
requiring senior mission management review and approval of final performance
management plans and (b) review and approve the performance management plan for
the democracy and governance program.

Comment/response: We agree with this recommendation. USAID/Angola’s Mission
Order on Performance Management is being revised to include clearer procedures on
the review and official approval of Performance Management Plans. Therefore,
USAID/Angola targets December 31, 2008 for closing this recommendation.

Recommendation No. 5: We recommend that USAID/Angola strengthen its procedures
to ensure that all of its data quality assessments include a thorough review of data
reliability.

Recommendation No. 6: We recommend that USAID/Angola strengthen its monitoring
and evaluation procedures by including follow up to help ensure that data integrity
problems and recommendations noted in data quality assessments are adequately
addressed.



                                                                                            20
                                                                                 APPENDIX II


Comment/response: We agree with these recommendations but believe they can be
combined. In its April workshop with partners, the Mission dedicated one whole day
(Wednesday) to issues of data quality. The Mission’s monitoring and evaluation efforts,
including data quality assessments, are being led by an FSN-11 monitoring and
evaluation specialist who was hired at the end of January 2008. This person, holder of a
PhD in community development, is well trained in both quantitative and qualitative
research. Over the past nine months he has become well acquainted with USAID
systems and regulations. The monitoring and evaluation specialist couples with
cognizant technical officers to undertake data quality assessments according to a
schedule he develops with technical staff. USAID/Angola’s Mission Order on
Performance Management provides guidance on maintaining data quality; with the key
monitoring and evaluation position filled, this guidance is being fully adhered to. The
Mission is poised to address any deficiencies. Therefore, USAID/Angola believes these
recommendations can be closed.

Recommendation No. 7: We recommend that USAID/Angola establish procedures,
including a revision to the trip report sheet in mission order no. 203, that require the
regular validation of data and reporting systems for results during site visits at all
implementing partners and service providers.

Comment/response: USAID/Angola agrees with this recommendation. The Mission
Order on Performance Management provides guidance on trip reports. With the
monitoring and evaluation specialist working with all cognizant technical officers, the full
spirit of the Mission Order can be strictly adhered to. One of the monitoring and
evaluation specialist’s duties is to check the trip reports of cognizant technical officers, to
ensure that trip reports are complete and properly filed. Therefore, USAID/Angola
believes this recommendation can be closed.

Additional Comments

Pages 17 - 18

Appendix 1: Scope and Methodology

This audit could have considered staffing levels and experience in a worldwide
comparative analysis of vulnerabilities. In the future, it might be useful to collect and
analyze data on the following:

   •   Number of USDHs/Democracy & Governance portfolio value (total amount of DG
       awards and contracts)
   •   Number of USDHs/Number of Democracy and Governance contracts and
       agreements
   •   Avg. length of service of USDHs managing Democracy and Governance
       contracts and agreements
   •   Avg. length of service of FSNs supporting Democracy and Governance contracts
       and agreements
   •   Number of FSNs/Democracy and Governance portfolio value (total amount of DG
       awards and contracts)
   •   Number of FSNs/Number of Democracy and Governance contracts and
       agreements



                                                                                            21
                                                                           APPENDIX II


   •     Percentage of Certified CTOs supporting Democracy and Governance contracts
         and agreements
   •     Average Number of Years since CTO certification

Page 6

No Standard Provision to Prohibit the Influence of Elections
USAID/Angola concurs that this issue has to be addressed by USAID/Washington,
which can then systematically require that such a provision be inserted into future
agreements.

Page 7

Reported Results Were Not Always Reliable

The second sentence in the box states, “The principal cause was a lack of adequate
record keeping and reporting systems, which resulted from a lack of training.” Please
clarify by inserting “among implementing partners” at the end of this sentence.

Page 21

Appendix IV: Unliquidated Obligations for Awards with Performance End Dates
Prior to January 1, 2006

Please number the awards to be de-obligated so these can be easily referred to.

As mentioned above, the de-obligations for Administrative Expenses (Item 10- 654-
MOA4-SO6-ADMIN-EXP-1, for $7,454) and Multipress (Item 11 654-PO-654-O-00-05-
00002-1for $50,000) have cleared, so these may be removed from the list.

Attachments:

   1) April 2008 Monitoring and Evaluation Workshop Agenda
   2) April 2008 Monitoring and Evaluation Workshop Participant List




                                                                                        22
                                                                                 APPENDIX III



      USAID/Angola Democracy and
      Governance Indicators for Fiscal
               Year 2007
                            Indicator Title                      FY 2007      FY 2007
                                                                  Target       Actual
        1. Number of Justice Sector Personnel That
                                                                    30           16 7
        Received USG Training
        2. Number of USG-Assisted Courts With Improved
                                                                     4            57
        Case Management
        3. Number of Curricula Created or Modified to Include
                                                                     -            -8
        Focus or Human Rights with USG Assistance
        4. Number of Public Advocacy Campaigns on Human
                                                                     -            -8
        Rights Supported by USG
        5. Number of Executive Branch Personnel Trained
                                                                    36           23
        with USG Assistance
        6. Number of Executive Office Operations Supported
                                                                     2            2
        with USG Assistance
        7. Number of Individuals Who Received USG-
        Assisted Training, Including Management Skills and
                                                                    117         981 9
        Fiscal Management, to Strengthen Local Government
        and/or Decentralization
        8. Number of Local Mechanisms Supported with USG
                                                                    15           18
        Assistance for Citizens to Engage Their Sub
        9. Number of Domestic Election Observers Trained
                                                                    150         4739
        with USG Assistance
        10. Number of Election Officials Trained with USG
                                                                    25           969
        Assistance
        11. Number of People Reached by USG-Assisted
                                                                 100,000      134,0009
        Voter Education
        12. Number of Individuals who Receive USG-
                                                                   1,030        1,263
        Assisted Political Party Training
        13. Number of Political Parties and Political
        Groupings Receiving USG Assistance to Articulate            14           14
        Platform
        14. Number of Civil Society Organizations Using USG
                                                                    25          21 10
        Assistance to Improve Internal Organizational
        15.Number of Civil Society Organization Advocacy
                                                                     1            1
        Campaigns Supported by USG




7
  Not audited.
8
  No activities planned until fiscal year 2008.
9
  The audit team was unable to confirm the reliability of these results.
10
   The audit team concluded that the mission met its planned results in this indicator because it
achieved at least 80 percent of its planned results.


                                                                                              23
                                                       APPENDIX IV



Unliquidated Obligations for Awards
With Performance End Dates Prior to
          January 1, 2006
         Document Number          Unliquidated Balance
   654-654-P-00-00-00076-00-3                        $ 921.00
   654-CA-654-A-00-05-00080-1                       32,417.92
   654-CA-690-A-00-04-00304-1                      158,254.26
   654-CO-654-C-00-01-00064-1                        1,543.00
   654-CO-AEP-I-812-99-00041-1                       2,415.00
   654-GA-654-G-00-03-00013-1                        6,030.05
   654-IAA-654-P-00-00-00076-3                     165,484.18
   654-IAA-654-P-00-00-00076-5                      17,540.06
   654-LAG-I-00-98-00031-00-1                        1,712.00
   654-MOA4-SO6-ADMIN-EXP-1                          7,454.89
   654-PO-654-O-00-05-00002-1                       50,000.00
   654-PSC-654-0011-S-00-9136-7                      1,314.28
   654-PSC-654-0011-S-00-9136-9                        212.22
   654-PSC-654-S-00-00-00109-5                         113.98
   654-PSC-654-S-00-00-00109-7                         412.15
   654-PSC-654-S-00-00-00109-9                       3,557.79
   654-PSC-654-S-00-01-00048-1                         296.18
   654-PSC-654-S-00-01-00048-5                         335.48
   654-PSC-654-S-00-01-00048-7                       2,054.64
   654-PSC-674-0011-S-00-9136-1                         99.61
   Total                                         $452,168.69




                                                                24
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
